     Department of Homeland Security





     FEMA Improperly Applied the 50 Percent Rule in Its 

        Decision To Pay for the Replacement of the 

        Martinsville High School, Martinsville, Illinois 





DD-13-04                                         January 2013

                                 OFFICE OI' lNSPECTOR GENERAL




                                             JAN 1 4 2013


MEMORANDUM FOR:                       Andrew Velasquez II I
                                      Region~ 1 Administrator, Region V
                                      Federal Emergency Management Agency
                                         ,-:l---'~ .   N.o~_ ~.
FROM:                                 D. Michael Beard
                                      Assistant Inspector Genera l
                                      Office of Emergency Management Oversigh t

SUBJECT:                              FEMA Improperly Applied the 50 Percent Rule in Its
                                      Decision To Pay for the Replacement of the Mortinwille
                                      High Schoof, Martin5ville, Illinois
                                      FEMA Disaster Number 1771-DR-ll
                                      Audit Report Number 00-13-04

We audited Public Assistance (PA) grant funds awarded to Martinsville Community Unit
School District IIC-3 (Martinsvi lle), Martinsville, Illinois (PA Identification Number 023-
UF91H·00). Our audit objective was to determine whether Martins~ille accounted for
and expended Federal Emergency M~nagement Agency (FEMA) grant funds accordin~
t o Federal regulations and FEMA guideline~.

The Illinoi s Emergency Management Agency (lEMA), a FEMA gr antee, awarded
Martinsville $13.5 million for damages caused by severe storms and flooding that
occurred June 1 to July 22, 2008. The award provided 75 percent FEMA funding for four
large projects' The audit covered the period June 1, 2008, t hrough May 4, 2012, the
cutoff date of our audit, and induded a re~iew of 100 percent of the total award (see
hhibit A, Schedule of Projects Audited). As of the cutoff date of our audit, all projects
rema ined open.

We conducted th is performance audit between MMch and o<;tober 2012 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
go~ernment auditing standards. Those standards require that we plan and perform t he
audit to obtain sufficient, appropriate e~idence to pro~ide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a r~asonable basis for our findings and conclusions ba~ed upon our


'Fed.,,1 regulOlion, in ell..:!.! !h~ lim e altho di,",\cr ",\ the I.rge p,oj", t th re,hold at $&ll,900.
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, IEMA, and Martinsville officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
Martinsville’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding
of Martinsville’s method of accounting for disaster-related costs and its procurement
policies and procedures.


                                             BACKGROUND

Severe storms and flooding damaged Martinsville’s high school. Wind damaged the
roof, and rain overwhelmed the roof drainage systems, causing extensive damage to the
building. FEMA applied its 50 Percent Rule calculation to determine whether it would
be more cost effective to replace, rather than repair, the school. FEMA generally makes
this calculation by comparing estimated repair costs with estimated replacements costs.
However, in arriving at its 50 Percent Rule determination, FEMA must adjust its repair
and replacement estimates based on the requirements of the 50 Percent Rule.

The “50 Percent Rule”

According to Federal regulation 44 CFR 206.226(f)(1), “A facility is considered repairable
when disaster damages do not exceed 50 percent of the cost of replacing a facility….”
FEMA refers to this regulation as the 50 Percent Rule and implements it according to its
Disaster Assistance Policy 9524.4. This policy provides the decisionmaking tool to
determine whether FEMA should fund the repair or replacement of a disaster-damaged
facility.2 The tool compares certain repair costs with certain replacement costs and
results in a fraction that expresses repair costs as a percentage of replacement costs.
The calculation specifically excludes many otherwise allowable repair and replacement
costs that FEMA will ultimately pay under the PA program.

FEMA policy excludes these costs because including them in the repair or replacement
decision calculation could distort the results. For example, according to FEMA, if the
repair side of the calculation included seismic upgrade costs to undamaged elements of

2
 Various Federal policies and publications clarify 44 CFR 206.226(f)(1). These include FEMA 322 Public
Assistance Guide (June 2007), p. 36; Public Assistance Policy Digest (January 2008), p. 113; and Disaster
Assistance Policy DAP9524.4 (September 24, 1998). FEMA updated DAP9524.4 on March 25, 2009.


www.oig.dhs.gov                                      2                                            DD-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

the building, then the repair costs of older buildings with even minor damage could
exceed the 50 percent cost threshold because of the comparatively high cost of code-
triggered whole-building upgrades, seismic upgrading, and related repairs.

FEMA bases its exclusion of certain costs on the premise that, when a facility is so
severely damaged (not including code-triggered whole-building upgrades) that the cost
to repair the damage exceeds 50 percent of the cost of a new building, it is often
justifiable and reasonable to replace the building. However, including certain code-
triggered whole-building upgrade costs with the costs of the repairs to the damaged
elements would likely cause erroneous decisions to fund new facilities rather than
repair structurally sound and lightly damaged facilities.

Specifically, the numerator of the fraction includes only the direct cost of repairing the
disaster damage, referred to as “hard” costs, and may include costs associated with the
current repair codes and standards that apply to the damaged elements only.3 The
numerator does not include costs associated with—

    a.   Upgrades and other elements triggered by codes and standards,
    b.   Design associated with upgrades,
    c.   Demolition of entire facility,
    d.   Site work,
    e.   Applicable project management costs,
    f.   Contents, and
    g.   Hazard mitigation measures.

The denominator of the fraction is the cost of replacing the facility based on its
predisaster design and according to applicable codes and standards currently in effect.
The denominator does not include costs associated with—

    a.   Demolition,
    b.   Site work,
    c.   Applicable project management costs,
    d.   Contents, and
    e.   Hazard mitigation measures.




3
 Only direct construction costs, known as “hard” costs, can be included in the numerator or denominator
of either the repair or the replacement costs. “Soft” costs include the costs for project management,
architectural and design fees, and insurance.


www.oig.dhs.gov                                    3                                         DD-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

Deciding to repair a facility may not necessarily result in cost savings to taxpayers after
all allowable costs under the PA program are included. However, FEMA caps the total
repair costs at the estimated cost to replace the facility.


                                         RESULTS OF AUDIT

Martinsville accounted for FEMA grant funds on a project-by-project basis as required
by Federal regulations. However, FEMA Region V officials did not correctly apply the
50 Percent Rule when deciding to replace, rather than repair, Martinsville High School.
Martinsville also did not follow Federal procurement standards when contracting with
the high school’s architectural and engineering (A/E) firm and did not obtain the
required type of insurance coverage for the new school. As a result, we question the
following ineligible amounts, which total $9,272,138:

    •	 $1,136,581, which represents the difference between actual claimed
       replacement costs at the time of the audit and the estimated repair costs used in
       the 50 Percent Rule calculation ($9,262,096 minus $8,125,515) (finding A).
    •	 $805,630 for improper contracting cost for a noncompetitive A/E contract
       (finding B).
    •	 $7,329,927 in claimed costs for the uninsured school. To avoid duplicate
       questioned costs, this amount is net of costs questioned in findings A and B
       ($9,272,138 claimed minus $1,136,581 and $805,630) (finding C).

In addition, FEMA should deobligate approximately $2.2 million of unused Federal funds
and put them to better use (finding D).

Some of the problems we identified in this report occurred because IEMA did not take a
proactive role in Martinsville’s subgrant activity as required under Federal regulation.
Inadequate State oversight has been a recurring problem identified in our audits of
FEMA’s PA program (finding E). FEMA, for its part, made significant errors in
determining the building’s eligibility for replacement under the 50 Percent Rule.
Following a recent Office of Inspector General report, FEMA headquarters acknowledged
problems in the application of its 50 Percent Rule policy and promised to take steps to
improve controls over its decisionmaking process.4




4
 FEMA’s Decisions To Replace Rather Than Repair Buildings at the University of Iowa, Audit Report
Number DD-12-17, June 19, 2012.


www.oig.dhs.gov                                    4	                                         DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

Finding A: FEMA Improperly Applied the 50 Percent Rule in Its Decision To Pay for the
Replacement of Martinsville High School

FEMA Region V officials incorrectly applied the 50 Percent Rule to determine whether
Martinsville should repair or replace its high school. The calculation included several
cost elements not allowed in FEMA’s 50 Percent Rule calculation. As shown in table 1,
FEMA incorrectly included costs for seismic upgrades and unallowable “soft” costs,
including A/E fees, in the repair costs (numerator), and demolition, site work,
information technology, general conditions, overhead and profit, contingencies, and
professional fees in the replacement costs (denominator). Consequently, FEMA’s
calculation resulted in a 63 percent ratio of repair costs to replacement costs, indicating
that FEMA should fund the building’s replacement. In contrast, when calculated
correctly, the ratio reaches only 32 percent, far short of the 50 percent minimum
needed to justify replacement.




www.oig.dhs.gov                              5                                     DD-13-04
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                              Table 1. 50 Percent Rule Comparisons 


                                      FEMA-                                             Allowable
                                                 Incorrect                  Correct
              Type of Cost           Included                                           50 Percent
                                                  Percent                   Percent
                                       Costs                                            Rule Costs
                                    Repair Costs
            Surface Flooding         $ 829,661                                           $ 829,661
             Other Damage              1,395,854                                          1,395,854
          Seismic Steel Frame          4,800,000                                                  0
                A/E Fees               1,100,000                                                   0
         Total Estimated Repair      $8,125,515                                          $2,225,515
                                 Replacement Costs
               Demolition           $ 1,269,514                                          $         0
                Site Work                325,000                                                  0
           New Construction            6,379,780                                          6,379,780
            Fixed Equipment              530,650                                            530,650
        Information Technology           125,000     63%                     32%            75,0005
           General Conditions          1,294,492                                                  0
          Overhead and Profit            862,994                                                  0
              Contingency              1,078,743                                                  0
            Professional Fees          1,000,294                                                   0
     Total Estimated Replacement    $12,866,467                                          $6,985,430

Most notably, FEMA included $4.8 million for seismic reinforcement on the repair side
of the equation that is unallowable in the 50 Percent Rule calculation. Martinsville is
located near the New Madrid Seismic Zone, and, according to FEMA Region V, the
extent of the damage triggered the legally required seismic reinforcement. FEMA
Disaster Assistance Policy 9524.4 states that “disaster damage” for the purpose of
calculating the 50 Percent Rule includes only the costs of repairing the damaged
components. Typically, seismic reinforcements improve and extend the useful life of a
building, but are not necessary to repair damaged elements of the building. It is
important to note that, under the 50 Percent Rule, FEMA will reimburse legally required
seismic upgrade costs. However, these seismic upgrade costs are not allowed in the
numerator of the 50 Percent Rule calculation.

FEMA Region V officials asserted that the seismic upgrade was necessary to repair the
flood-damaged elements safely, but did not provide us with any evidence of the

5
    Excludes $50,000 of unallowable information technology equipment as a replacement cost element.


www.oig.dhs.gov                                     6                                        DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

weakness of the structure or that the seismic work was in any other way necessary to
repair the building. If the seismic upgrade were somehow necessary to repair the
damaged elements back to their predisaster condition, these costs would have been
allowable in the 50 Percent Rule calculation. However, the engineer who performed the
damage assessment told us that Martinsville could have safely repaired the school
without the seismic reinforcement. In any case, FEMA Region V should have developed
and retained documentation supporting its assertion that a structural weakness
required seismic reinforcement to repair the school safely.

According to FEMA 322 Public Assistance Guide (June 2007), p. 36, “Repair cost includes
only those repairs, including non-emergency mold remediation, associated with the
damaged components and the codes and standards that apply to the repair of the
damaged components.” Only direct construction costs, or “hard” costs, can be included
in the numerator or denominator of either the repair or the replacement costs. “Soft”
costs include the costs for project management, architectural and design fees, and
insurance. Because FEMA did not correctly apply the 50 Percent Rule, we question
$1,136,581 as ineligible. We calculated the $1,136,581 in questioned costs as the
difference between the net actual claimed replacement costs at the time of the audit
($9,262,096; see project 978 in table 3) and the total estimated repair costs used in the
50 Percent Rule calculation ($8,125,515; see table 1), or $9,262,096 minus $8,125,515.




www.oig.dhs.gov                             7                                    DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                       Figure 1. The New Martinsville High School





FEMA Region V officials agreed that they included unallowable “soft” costs in their
50 Percent Rule calculation, but could not explain why the FEMA contractor who
prepared the calculation included the inappropriate costs or how these errors could
have occurred and not been detected. If FEMA officials had independently reviewed the
calculations before approving the building for replacement, they might have detected
and prevented these calculation errors. Although FEMA headquarters has promised to
develop review procedures for its 50 Percent Rule, in the interim, FEMA Region V should
develop and implement interim procedures to ensure that qualified and independent
professionals review these calculations.

FEMA Region V officials said that they have taken steps to modify the implementation of
the 50 Percent Rule by instructing all field staff to refer 50 Percent Rule determinations
to Region V for review by its technical experts. These officials also said that they plan to
gather more information to determine why the region’s 50 percent review process is
not doing a better job of detecting errors.

Although FEMA Region V agreed that it should not have included “soft” costs in its
calculation, it did not concur that the seismic upgrade was unallowable in the
calculation. Region V officials said that they disagreed because, at the time of the
disaster, FEMA headquarters was revising the 50 Percent Rule policy to include codes
and standards language, and the guidance available at the time of the project
formulation allowed for seismic reinforcement. The officials also determined that the
structure of the school was so damaged that it triggered codes and standards requiring

www.oig.dhs.gov                              8                                     DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

seismic steel reinforcement. However, as discussed above, FEMA’s policies specifically
prohibit including these triggered costs in the 50 Percent Rule calculation.

Further, FEMA headquarters has never provided us with evidence that it is considering
allowing seismic upgrades in the 50 Percent Rule calculation, either at the time of this
disaster or now. Finally, FEMA Region V could not provide evidence that the flooding
had so weakened the facility that it could have been repaired safely only by seismic
reinforcement. On the contrary, the engineer who performed the damage assessment
told us that the facility could have been repaired safely without the seismic upgrade.

Finding B: Martinsville Improperly Awarded an $805,630 Noncompetitive Contract

Martinsville did not comply with Federal procurement standards when it awarded a
noncompetitive A/E contract for the design and construction management of
Martinsville High School. Therefore, we question $805,630 as ineligible because
Martinsville improperly procured this work. Federal regulation 44 CFR 13.36(d)(4)(i)
allows applicants to use noncompetitive contracts only in specific circumstances,
stating, “Procurement by noncompetitive proposals may be used only when the award
of a contract is infeasible under small purchase procedures, sealed, bids or competitive
proposals and one of the following circumstances applies: (A) The item is available only
from a single source; (B) The public exigency or emergency for the requirement will not
permit a delay resulting from competitive solicitation; (C) The awarding agency
authorizes noncompetitive proposals; or (D) After solicitation of a number of sources,
competition is determined inadequate.” None of these exceptions applied.

Rather than competing this contract openly, Martinsville amended a previous contract
with an A/E firm that had performed work for the school district before the flooding.
According to a Martinsville official, the school needed an A/E firm immediately to
determine its course of action related to flood damages, and school officials did not
know that they were required to openly compete the contract. However, obtaining
immediate help to set a course of action is far different from hiring an A/E firm to design
and manage the construction of a multimillion-dollar high school over a period of years.
Also, Martinsville had ample time, 7 months from the disaster declaration date to the
signing of the A/E contract, to properly procure the contract.

Further, Martinsville officials did not take affirmative steps to ensure that minority
firms, women’s business enterprises, and labor surplus area firms were used when
possible, as 44 CFR 13.36(e)(1) requires. These affirmative steps should include using
the services and assistance of the Small Business Administration and the Minority
Business Development Agency of the Department of Commerce, and requiring the


www.oig.dhs.gov                             9                                     DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

prime contractor, if subcontracts are to be used, to take the affirmative steps listed in
44 CFR 13.36(e)(2)(i) through (v). Martinsville did not give these types of firms the
opportunity to bid on the A/E contract as required, because Martinsville officials did not
know about these requirements.

Finding C: Martinsville Has Not Obtained the Required Flood Insurance

As of August 14, 2012, a year after the newly constructed high school opened,
Martinsville officials had not obtained the $12,989,816 in required flood insurance. As a
result, Martinsville does not have adequate insurance coverage in case the high school
suffers flood damage again. The need for insurance renders the entire building and its
contents ineligible for FEMA funding until Martinsville officials obtain the proper
insurance coverage.

Federal regulation 44 CFR 206.252(d) states, “The grantee or subgrantee is required to
obtain and maintain flood insurance in the amount of eligible disaster assistance, as a
condition of receiving Federal assistance that may be available.” In addition, FEMA 322,
Public Assistance Guide (June 2007), p. 123, states, “As a condition for receiving Public
Assistance for permanent work, an applicant must obtain and maintain insurance to
cover that facility for the hazard that caused the damage. Such coverage must, at a
minimum, be in the amount of the estimated eligible damages for that structure prior to
any reduction.”

As shown in table 2, FEMA estimated total eligible damages for the high school at
$12,989,816, before reductions for insurance, which included $12,866,467 for the
facility and $123,349 for the contents. Therefore, Martinsville is required to obtain
flood insurance coverage in the amount of $12,989,816 because that is FEMA’s gross
estimate of the damages.

                          Table 2. Gross and Net Award Amounts
                                             Reductions for
                              Gross Award     Anticipated    Net Award
                  Project
                                Amount         Insurance      Amount
                                               Proceeds
                   978         $12,866,467     ($1,395,354) $11,471,113
                   629             123,349         (77,710)      45,639
                  Totals       $12,989,816     ($1,473,064) $11,516,752

Although IEMA notified Martinsville of the insurance requirement, IEMA officials said
that they cannot compel Martinsville to purchase insurance. An IEMA official said that


www.oig.dhs.gov                             10                                    DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

the authority to enforce that requirement rested with FEMA. We disagree, because
IEMA can withhold funding from an applicant until the applicant complies with the
requirements of FEMA’s PA program. It is important to note that Federal regulation
requires the State (grantee) to manage the day-to-day activities of subgrantees:

       44 CFR 13.40 Monitoring and reporting program performance.
       (a) Monitoring by grantees. Grantees are responsible for managing the day-to-
           day operations of grant and subgrant supported activities. Grantees must
           monitor grant and subgrant supported activities to assure compliance with
           applicable Federal requirements and that performance goals are being
           achieved. Grantee monitoring must cover each program, function or activity.

A Martinsville official said that the school district had not yet obtained flood insurance
primarily because the district did not believe it should be required to purchase the
insurance for the full amount of the project when it cost somewhat less to rebuild the
school. However, FEMA policy requires that insurance be obtained within a reasonable
period of the completion of construction. An IEMA official responsible for the grant said
that he understood Martinsville’s reluctance to purchase flood insurance for the full
project funding because the final cost of construction was less than the estimated cost.
However, regardless of Martinsville’s reluctance, Federal regulations require that
insurance coverage “must, at a minimum, be in the amount of the estimated eligible
damages for that structure prior to any reduction.” At the time of our audit, FEMA’s
gross estimate of damages remained at $12,989,816 for the facility and its contents, so
that is the amount of insurance required.

IEMA informed Martinsville officials in a September 15, 2011, email message that they
were required to purchase flood insurance in the amount of $12,866,467, which is the
estimated eligible damages to the facility before the reduction for insurance. At the
time of the audit, Martinsville officials were not aware that they were also required to
insure the contents of the building for flood damage in the amount of $123,349. A
FEMA official told us that neither Martinsville nor IEMA had informed FEMA that
Martinsville had not purchased the required flood insurance until after we began this
audit. IEMA, in its role as the grantee, should have informed FEMA that the subgrantee
had not purchased the required flood insurance and withheld reimbursements until
Martinsville obtained the required insurance.

Section 311(a)(2) of the Robert T. Stafford Disaster Relief and Emergency Assistance Act
states that, “In making a determination with respect to availability, adequacy, and
necessity under paragraph (1), the President shall not require greater types and extent
of insurance than are certified to him as reasonable by the appropriate State insurance


www.oig.dhs.gov                            11                                    DD-13-04
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

commissioner responsible for regulation of such insurance. In addition, the FEMA Public
Assistance Guide (June 2007, p. 123) states, “An applicant is exempt from this
requirement for facilities for which, in the determination of the State insurance
commissioner, the type and/or extent of insurance being required by FEMA is not
reasonable.” However, Martinsville has not applied for or obtained such an exemption.

If Martinsville does not obtain the required amount of flood insurance or obtain a
waiver for the requirement, FEMA should disallow the entire net amount Martinsville
claimed for the high school, or $9,272,138 after adjustments for actual insurance
proceeds received (see finding D and table 3). However, this amount includes
$1,136,581 questioned in finding A and $805,630 questioned in finding B (see Exhibit A,
Schedule of Projects Audited). Therefore, to avoid questioning the same costs twice, we
are recommending that FEMA disallow the net amount of $7,329,927 for this finding
($9,272,138 claimed minus $1,136,581 and $805,630). If Martinsville obtains the
required insurance coverage, the amounts in findings A and B remain questioned.

Finding D: FEMA Should Deobligate $2.2 Million in Unused Funds

FEMA should deobligate approximately $2.2 million in unused funds from Projects 978
and 629 and put those funds to better use. Martinsville claimed $9,623,876 for the
facility (Project 978), with approximately $100,000 in outstanding costs to be claimed.
Martinsville also claimed $45,639 for the contents of the facility (Project 629). As shown
in table 3, Martinsville’s gross claim amount for the high school was $9,769,515
($9,623,876 plus $100,000 plus $45,639).6 However, at the time of our audit, FEMA had
not adjusted the gross award amounts (see table 2), and Martinsville had not adjusted
its gross claim amounts for the insurance proceeds it received in late 2008 and early
2009.

As a result, the $2.2 million in excess funds remain obligated but unused. The new
Martinsville High School opened in August 2011, and construction was substantially
complete by the end of the month. By May 2012, Martinsville had claimed $9,623,876
for the facility, with an additional $100,000 to be claimed (Project 978) and $45,639 for
the contents (Project 629). FEMA, working with IEMA and Martinsville, should have
reduced the gross claim amounts for the high school by the amounts of insurance
proceeds Martinsville received, for a net claim amount of $9,272,138.




6
 If Martinsville does not claim the additional $100,000 as planned, FEMA should add this amount of
unused funds to the amount we recommend for deobligation.


www.oig.dhs.gov                                   12                                          DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                          Table 3. Gross and Net Claim Amounts 

                                            Reductions for
                             Gross Claim                     Net Claim
                  Project                     Insurance
                               Amount                         Amount
                                               Proceeds
                   978         $9,723,876        ($461,780) $9,262,096
                   629             45,639         ($35,597)      $10,042
                  Totals       $9,769,515        ($497,377) $9,272,138

The difference between the net award amount of $11,516,752 (table 2) that remains
obligated and the net claim amount of $9,272,138 (table 3) is $2,244,614.

Reducing unneeded funding in a timely manner (1) releases funds to cover cost overruns
on other projects associated with the disaster, (2) provides a more accurate status of PA
program costs for a disaster, and (3) is consistent with appropriations law and
Statement of Federal Financial Accounting Standards Number 5, which require
obligations/liabilities in FEMA’s accounting system to be recorded accurately and
supported.

Finding E: Grant Management Issues

Some of the problems we identified in this report occurred because IEMA did not take a
more proactive role in Martinsville’s subgrant activity. If IEMA officials had reviewed
Martinsville’s A/E contract, they would have realized that it did not comply with Federal
requirements; and IEMA should have notified FEMA of Martinsville’s continuing failure
to purchase required flood insurance. Federal regulation 44 CFR 13.37(a)(2) requires
grantees to ensure that subgrantees are aware of the requirements imposed on them
by Federal regulations. Further, 44 CFR 13.40(a) requires grantees to manage the day-
to-day operations of subgrant-supported activities and to monitor subgrant-supported
activities to ensure compliance with applicable Federal requirements. IEMA officials had
no comments regarding why Martinsville did not competitively award the A/E contract,
but they did not believe it was IEMA’s responsibility to ensure that Martinsville met
insurance requirements because IEMA does not have the statutory authority to compel
subgrantees to purchase insurance.

We disagree with IEMA’s position that it is not the grantee’s responsibility to ensure
that subgrantees meet Federal insurance requirements. As stated previously, Federal
regulations require grantees to monitor grant- and subgrant-supported activities to
ensure compliance with applicable Federal requirements. It is not FEMA’s responsibility
to ensure that subgrantees comply with insurance requirements. Although FEMA has
the authority to obligate and deobligate Federal funds, all PA funds flow through the


www.oig.dhs.gov                            13                                   DD-13-04
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

grantee to the subgrantee. Therefore, the grantee controls Federal funds paid to or
recovered from its subgrantees and is responsible for a subgrantee’s performance and
compliance with Federal requirements.

IEMA officials disagreed with this finding, saying that they are proactive in grant
management but are not always able to monitor all aspects of a grant because of
budgetary restraints that restrict hiring. According to an IEMA official, with limited
staffing, IEMA sometimes must make choices in prioritizing grant management functions.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region V:

Recommendation #1: Disallow $1,136,581 ($852,436 Federal share) of ineligible funds
claimed for actual replacement costs in excess of estimated repair costs (finding A).

Recommendation #2: Establish interim policies and procedures to ensure that 50
Percent Rule decisions are supported and independently reviewed by qualified
professionals (finding A).

Recommendation #3: Disallow $805,630 ($604,223 Federal share) of improperly
procured contract costs as ineligible, unless FEMA grants an exemption for all or part of
the costs as provided for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act, as amended (finding B).

Recommendation #4: Disallow $7,329,927 (Federal share $5,497,445) as the net
ineligible, uninsured portion of Martinsville’s new school unless Martinsville either
obtains and maintains flood insurance to cover the full amount of eligible disaster
assistance provided for the new school (finding C) or obtains an exemption for the
requirement. The amount questioned is net of the amounts questioned in findings A
and B ($9,272,138 minus $1,136,581, minus $805,630).

Recommendation #5: Deobligate $2,244,614 ($1,683,461 Federal share) of unused
funds from Projects 978 and 629 and put those Federal funds to better use (finding D).

Recommendation #6: Require IEMA to develop and implement procedures to provide
reasonable assurance that subgrantees comply with Federal regulations (finding E).




www.oig.dhs.gov                            14                                    DD-13-04
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Martinsville, IEMA, and FEMA officials during
our audit and included their comments in this report, as appropriate. We also provided
a draft report in advance to these officials and discussed it with them during exit
conferences held between October 5 and 23, 2012. Martinsville and IEMA officials
disagreed with our findings or deferred comments until after we issue our final report.
FEMA disagreed with findings A and E, and agreed with findings B, C, and D.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination. Significant contributors to this
report were Tonda Hadley, Director; Christopher Dodd, Audit Manager; William Lough,
Auditor-in-Charge; and Jacob Farias, Program Analyst.

Should you have questions, please call me at (202) 254-4100, or your staff may contact
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            15                                   DD-13-04
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                    EXHIBIT A

                               Schedule of Projects Audited 

                             June 1, 2008, to March 28, 2012 

            Martinsville Community Unit School District #C-3, Martinsville, Illinois 

                            FEMA Disaster Number 1771-DR-IL 


   We questioned FEMA’s 50 Percent Rule calculations in finding A, and Martinsville’s
   improper contracting in finding B. These questioned costs were also included in the
   costs we questioned under finding C for lack of proper insurance coverage (see below).
   However, because we cannot question the same costs more than once, we netted the
   duplicate questioned costs out of the amount questioned in finding C. The net effect is
   to question the total amount of $9,272,138, or the entire amounts claimed after
   adjustments for actual insurance proceeds received under projects 978 and 629
   ($9,262,096 plus $10,042). Therefore, if FEMA allows the questioned costs under
   findings A and B, FEMA should continue to disallow the total questioned costs under
   finding C. Conversely, if FEMA allows questioned costs under finding C, those costs
   should remain questioned under findings A and B.

                                                                                    Funds Put to
 Project     Net Award        Finding       Finding      Finding     Total Costs     Better Use
 Number       Amount             A             B            C        Questioned      (Finding D)

    978      $11,471,113 $1,136,581        $805,630 $9,262,096 $11,204,307               $2,209,017
   1513         1,635,372
   1514           379,233
    629            45,639             0            0    10,042      10,042                   35,597
Subtotals    $13,531,357 $1,136,581        $805,630 $9,272,138 $11,214,349               $2,244,614
Less Costs Questioned Twice:
  Finding A                                         (1,136,581)       (1,136,581)
  Finding B                                           (805,630)         (805,630)
Totals (net)                 $1,136,581    $805,630 $7,329,927        $ 9,272,138        $2,244,614




   www.oig.dhs.gov                             16                                    DD-13-04
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                                 EXHIBIT B 


                               Report Distribution List

          Martinsville Community Unit School District #C-3, Martinsville, Illinois 

                          FEMA Disaster Number 1771-DR-IL


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Acting Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region V
Audit Liaison, FEMA (Job Code G-12-019)

Grantee

Public Assistance Coordinator, Illinois Division of Emergency Management

State

Director, Performance Audits, State of Illinois

Subgrantee

Superintendent, Martinsville Community Unit School District #C-3




www.oig.dhs.gov                              17                                    DD-13-04
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
